AFFIDAVIT OF SERVICE
I, David Brennan, declare under penalty of perjury that the following is true
and correct.
The Application for Extension of Time in Which to File a Petition for Writ of
Certiorari in Brennan v. White County, Arkansas, submitted to the Honorable Neil
M. Gorsuch, Associate Justice, has been served upon counsel for White County,
Arkansas, this 21st day of August, 2019, by sending a copy of the Application via
First Class U.S. Mail, postage prepaid, to the following:
Colin Jorgensen
Association of Arkansas Counties
1415 West Third Street
Little Rock, AR 72201
David Brennan
1200 Curd Drive, lot 8
Searcy, AR 72143
MagicGritsLegal@gmail.com
VERIFICATION
STATE OF ARKANSAS )
)ss.

COUNTY OF WHITE

)

On this day personally appeared before me, the undersigned, a Notary Public
within and for the County and State aforesaid, duly commissioned, qualified and
acting, David Brennan, to me well known or satisfactorily proven, and
acknowledged that he had executed the foregoing Affidavit in my presence.
WITNESS my hand and seal as such Notary Public this 21st day of August,
2019.

1

-/ I

Notary Public

